<html>
<title> - ADDRESSING REMAINING GAPS IN FEDERAL, STATE, AND LOCAL INFORMATION SHARING</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






  ADDRESSING REMAINING GAPS IN FEDERAL, STATE, AND LOCAL INFORMATION 
                                SHARING

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                            COUNTERTERRORISM
                            AND INTELLIGENCE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 26, 2015

                               __________

                            Serial No. 114-6

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                           __________


                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-110 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          










                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Steven M. Palazzo, Mississippi       Donald M. Payne, Jr., New Jersey
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Scott Perry, Pennsylvania            Bonnie Watson Coleman, New Jersey
Curt Clawson, Florida                Kathleen M. Rice, New York
John Katko, New York                 Norma J. Torres, California
Will Hurd, Texas
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                   Peter T. King, New York, Chairman
Candice S. Miller, Michigan          Brian Higgins, New York
Lou Barletta, Pennsylvania           William R. Keating, Massachusetts
John Katko, New York                 Filemon Vela, Texas
Will Hurd, Texas                     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Mandy Bowers, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk
            Hope Goins, Minority Subcommittee Staff Director
            
            
            
            
            
            
            
            
            
            
            
            
            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Brian Higgins, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     4

                               Witnesses

Mr. Mike Sena, President, National Fusion Center Association:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
Chief Richard Beary, President, International Association of 
  Chiefs of Police:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
Dr. Cedric Alexander, National President, National Organization 
  of Black Law Enforcement Executives (NOBLE):
  Oral Statement.................................................    17
  Prepared Statement.............................................    19

 
  ADDRESSING REMAINING GAPS IN FEDERAL, STATE, AND LOCAL INFORMATION 
                                SHARING

                              ----------                              


                      Thursday, February 26, 2015

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:03 p.m., in 
Room 311, Cannon House Office Building, Hon. Peter T. King 
[Chairman of the subcommittee] presiding.
    Present: Representatives King, Barletta, Hurd, and Keating.
    Also present: Langevin.
    Mr. King. The Committee on Homeland Security Subcommittee 
on Counterterrorism and Intelligence will come to order.
    The subcommittee is meeting today for our first hearing of 
the 114th Congress to hear testimony from three National law 
enforcement associations regarding the importance of 
information sharing and on-going challenges.
    I would like to welcome the Ranking Member and express my 
appreciation to all the witnesses who have traveled to be here 
today.
    I recognize myself for an opening statement.
    Let me just say at the outset, they are talking about votes 
starting somewhere in the next 20 minutes or so. So what the 
Ranking Member and I would like to do is do our statements and 
then allow time for you to make your opening statements. The 
vote shouldn't take long. Then we will come back for the 
testimony if that is agreeable to everyone.
    Again, I thank you for coming down here and sorry for the 
inconvenience. If I can find a way to blame it on the 
Democrats, I will. But since we control the House, it is 
getting harder to do that. But I will think of something before 
it is over.
    For our first hearing, the subcommittee is focusing on the 
importance of information sharing and counterterrorism 
cooperation between Federal, State, and local law enforcement. 
This hearing should demonstrate that this committee considers 
local law enforcement and first responders as absolutely vital 
in the homeland security mission and sets the stage for much of 
the committee's activity in the 114th Congress.
    A cop or sheriff's deputy on patrol, an analyst reviewing a 
suspicious activity report, or a first responder interacting 
with the public carrying out their daily responsibilities are 
most likely going to be the first to identify a possible 
threat. In the event of a terrorist attack, they will be the 
first to respond. There are over 780,000 law enforcement 
officers in the United States, including Federal, State, and 
local law enforcement officers. Ensuring that information is 
available and accessible to appropriate law enforcement 
personnel at all levels is a critical force multiplier in our 
Nation's effort to defend against homeland terror attacks.
    Since September 11, 2001, there have been a number of 
terror attacks in the homeland conducted by violent Islamic 
extremists, the 2009 Little Rock recruiting station shooting, 
the Fort Hood massacre in 2009, Northwest Airlines Flight 253 
on Christmas day, 2009, the 2010 attempted car bombing in Times 
Square, and the April 2013 bombings at the Boston Marathon.
    Additionally, there have been at least two small-scale 
attacks inspired by ISIS, the Oklahoma City beheading in 2014 
and the hatchet attack against two NYPD police officers just 
last October. The threat of home-grown radicalized individuals 
is growing. There have been 94 home-grown, violent jihadist 
plots in the United States since September 11, with over 70 
percent occurring in the last 5 years. We are dealing with 
unprecedented numbers of people seeking to join ISIS and other 
terror groups. There are over 150 U.S. persons who have or have 
tried to join ISIS.
    Just yesterday, three men were arrested in New York and 
Florida for conspiracy to provide material support to ISIS, 
including joining their group as fighters. This group was also 
discussing carrying out attacks in the homeland, specifically 
in Brooklyn and against the President of the United States. We 
have seen disrupted travelers carrying out attacks in Canada, 
Australia, and elsewhere. It is vital that State and local law 
enforcement have visibility into this threat and on-going cases 
in their areas of responsibility.
    While progress has been made to improve the flow of 
information, after-accident analyses of past attacks show there 
are remaining challenges. A common trend in these different 
reviews is the need for Federal departments and agencies to 
view State and local law enforcements as partners in National 
security and counterterrorism. The need for leadership within 
organizations to ensure accountability, information sharing, 
wider access to necessary databases, and the 
professionalization of information sharing. It is probably true 
that these issues will never be perfectly addressed. But we 
must keep in mind that our war on terror is a decades-long 
effort to defeat a dedicated enemy. Anyone who doubts that 
should remember that today is also the anniversary of the first 
World Trade Center bombing that killed six and wounded 
thousands of people. One of those six was a neighbor of mine, 
Monica Rodriguez Smith. We must continue to make every possible 
improvement to our homeland security, including intelligence 
information sharing.
    I look forward to the testimony of the witnesses.
    [The statement of Chairman King follows:]
                  Statement of Chairman Peter T. King
                           February 26, 2015
    For our first hearing in the 114th Congress, the subcommittee is 
focusing on the importance of information sharing and counterterrorism 
cooperation between Federal, State, and local law enforcement. This 
hearing should demonstrate that this committee considers local law 
enforcement and first responders as absolutely vital in the homeland 
security mission, and set the stage for much of the committee's 
activity in the 114th Congress.
    A cop or sheriff's deputy on the patrol, an analyst reviewing a 
suspicious activity report, or a first responder interacting with the 
public carrying out their daily responsibilities are most likely going 
to be the first to identify a possible threat. In the event of a 
terrorist attack, they will be the first to respond.
    There are over 780,000 law enforcement officers in the United 
States (including Federal, State, and local law enforcement officers 
(LEOs)). Ensuring that information is available and accessible to 
appropriate State and local law enforcement personnel is a critical 
force multiplier in our Nation's efforts to defend against homeland 
terror attacks.
    Since September 11, 2001, there have been a number of terror 
attacks on the homeland conducted by violent Islamist extremists: The 
2009 Little Rock Recruiting Station shooting, the Fort Hood shooting 
(2009), Northwest Airlines Flight 253 on Christmas day 2009, the 2010 
attempted car bombing in Times Square, and the April 2013 bombings at 
the Boston Marathon.
    Additionally, there have been at least two small-scale attacks 
inspired by the Islamic State of Iraq and Syria (ISIS): Oklahoma 
beheading (2014) and the hatchet attack against four New York Police 
Department (NYPD) officers (2014).
    The threat of home-grown, radicalized individuals is growing. There 
have been 94 home-grown violent jihadist plots in the United States 
since 9/11, with over 70% occurring in the last 5 years.
    We are dealing with unprecedented numbers of people seeking to join 
ISIS and other terror groups. There are over 150 U.S. persons who have, 
or have tried, to join ISIS. Just yesterday, three men were arrested in 
New York and Florida for conspiracy to provide material support to 
ISIS, including joining the group as fighters. This group has also 
discussed carrying out attacks in the homeland, including targeting law 
enforcement and military personnel. We have seen disrupted travelers 
carry out attacks in Canada, Australia, and elsewhere. It is vital that 
State and local law enforcement have visibility into this threat and 
on-going cases in their areas of responsibility.
    The unfortunate reality is that there is plenty of counterterrorism 
work to go around and this threat requires close coordination between 
Federal, State, and local law enforcement.
    While progress has been made to improve the flow of information, 
action analysis of past attacks shows that there are remaining 
challenges. A common trend in these different reviews is the need for 
Federal departments and agencies to view State and local law 
enforcement as partners in National security and counterterrorism, the 
need for leadership within organizations to ensure accountability for 
information sharing, wider access to necessary databases, and the 
professionalization of analysis and information sharing.
    It is probably true that these issues will never be perfectly 
addressed, but we must keep in mind that our war on terror is a 
decades-long effort to defeat a dedicated enemy. Anyone who doubts that 
should remember that today is also the anniversary of the first World 
Trade Center bombing in 1993 that killed 6 and wounded 1,000 people. We 
must continue to make every possible improvement to our homeland 
security--including intelligence and information sharing.
    I would like to welcome Mr. Sena, Chief Beary, and Dr. Alexander. 
The input from your respective associations is critical to the 
subcommittee's understanding of progress made to improve the amount and 
quality of information shared between Federal, State, and local law 
enforcement and of remaining challenges.
    I look forward to the panel's update and would like to thank our 
distinguished panel of witnesses in advance.

    Mr. King. Now I am pleased to recognize the Ranking 
Minority Member of the subcommittee, the gentleman from the 
other end of New York, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman, for holding this 
hearing today.
    I would like to thank the witnesses for traveling here to 
be with us today.
    In consideration of time and in deference to our panel of 
witnesses, I will submit my opening statement for the record. 
So we can proceed with our panel.
    [The statement of Ranking Member Higgins follows:]
               Statement of Ranking Member Brian Higgins
                           February 26, 2015
    I would like to thank the Chairman for holding today's hearing. I 
would also like to thank the witnesses for traveling to be here with us 
today.
    Information sharing is an integral part of our Nation's security.
    It has been both said and proven time and time again: Information 
sharing leads to better and more informed decision making and 
ultimately leads to a safer environment for everyone.
    The idea of information sharing between Federal, State, local law 
enforcement has been engrained in our homeland security policies since 
September 11, 2001.
    Since that date, the Federal Government has developed many 
initiatives expanding efforts at information sharing with State and 
local partners.
    While we now have many more partnerships, such as Fusion Centers 
and the National Joint Terrorism Task Force, our work in this area is 
not complete.
    The ultimate goal of intelligence is to provide accurate analysis 
in a timely manner.
    Complacency is unacceptable.
    There must be a balance that eliminates unnecessary redundancy 
while maintaining the competitive environment for sharing information.
    That is the challenge for law enforcement officials.
    Congress must do our part as well.
    As we sit here today, none of us know for sure what will happen 
with DHS funding within the next hour or tomorrow.
    That type of uncertainty will trickle down and impact all of the 
issues we have gathered to discuss today.
    Information sharing should also be tailored, when practicable, to 
ensure that each law enforcement entity is getting the best and most 
useful information.
    The true value of information sharing will never be realized if 
State and locals cannot respond and protect their own communities.
    Intelligence officers and analysts must integrate themselves into 
the jurisdictions and communities they are assigned, in order to know 
and understand geographical and cultural sensitivities.
    Also, we need the agencies as a whole, especially the DHS 
components, to be willing participants and provide the necessary 
support to assist State and locals.
    So while this topic is not new, it is an issue that we cannot 
afford to ignore.
    I recognize the position our witnesses are put in today, 
essentially being asked to critique an agency that is their partner and 
funding source, but I want to assure you that this type of open 
dialogue is beneficial to all parties involved.
    Once Congress can understand the challenges you face, we can work 
together to craft effective solutions.
    Again, I welcome you all, and I look forward to your testimony.

    Mr. King. Members of the subcommittee are reminded that 
opening statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                           February 26, 2015
    Information sharing is critical to our Nation's security. As I have 
said before, information sharing in the intelligence community is an 
evolving puzzle of pieces. Officials must gather and analyze these 
pieces of diverse and sometimes inconsistent information to create a 
single coherent picture. That picture is then shared with other 
officials, all of whom are working to keep our Nation safe.
    Since the 9/11 attacks, both Congress and the Executive branch have 
addressed the systematic problems caused by both the failure to analyze 
and the failure to share information between law enforcement officials 
and first responders. Some of those failures have been remedied by 
simply requiring agencies to talk to each other and their colleagues 
within State, local, and Tribal governments.
    As easy as it may sound, this has not been a simple process. Many 
agencies had cultures which promoted stove-piped information and 
prevented external sharing. Those agencies have since undergone a 
cultural shift. Some are still struggling with shifting from a need-to-
know culture to a need-to-share environment. However, because we know 
the price of failure, Congress must continue to insist upon and oversee 
this transition.
    Our insistence must be shown by not only pushing for better 
information sharing, but also by providing the tools necessary to 
achieve a high and concise level of sharing. Congress and the Federal 
Government must do more to assure that State and local fusion centers 
can fully assist in the homeland security mission. These centers form 
the backbone of an information-sharing infrastructure. While DHS and 
FBI are helping fusion centers to build analytical and operational 
capabilities, they must also help these centers measure and increase 
their homeland security value.
    State and local fusion center partners can help by identifying and 
documenting the specific programs and activities that are most 
important for executing the missions for the State and local 
governments. This kind of guidance has several mutual benefits for all 
parties involved.
    It will increase the effectiveness of each fusion center, will 
assure that the Federal tax dollar is being spent wisely, and most 
importantly, it will provide clear rules that will ensure that civil 
rights and civil liberties are safeguarded.
    State and local fusion centers and their partners must get the 
assistance they need to be helpful in doing their part to keep this 
Nation safe. Yet, as we sit here today, there are those who believe we 
should not fund the Department of Homeland Security. It seems 
intellectually dishonest to charge our witnesses here today and their 
partners within DHS with doing work we are not even willing to fund. As 
we consider the challenges we face, I look forward to hearing the 
assessment of each of our witnesses about the challenges that lie ahead 
for the information-sharing environment.

    Mr. King. We are pleased to have a very distinguished panel 
of witnesses before us today on this vital topic.
    Mike Sena is the director of Northern California Regional 
Intelligence Center, the Fusion Center for the San Francisco 
Bay area. He also currently serves as president of the National 
Fusion Center Association. Mr. Sena has testified before this 
committee on numerous occasions and has been a great resource 
to the committee over the past several years.
    Chief Richard Beary is president of the International 
Association of Chiefs of Police. Chief Beary served for 30 
years as a law enforcement officer in Florida, including as 
chief of police for the city of Lake Mary. In 2007, he was 
appointed chief of police for the University of Central 
Florida. He has twice been awarded the Medal of Valor for 
performance undertaken at great personal hazard.
    Dr. Cedric L. Alexander is the national president for the 
National Organization of Black Law Enforcement Executives. He 
also serves as the chief of police for the DeKalb County. 
Previously, Dr. Alexander was the Federal security director for 
the Transportation Security Administration at Dallas/Fort Worth 
International Airport. He also served as deputy commissioner of 
the New York State Division of Criminal Justice Services, chief 
of police in Rochester Police Department, and held several 
leadership roles at the University of Rochester Department of 
Psychiatry in New York. He began his law enforcement career in 
1977 and also served with the Miami-Dade Police Department and 
was a law enforcement officer in Florida for 15 years.
    So with that, Mr. Sena, we will begin with you. Try to keep 
your statements to 5 minutes if you can. We are not going to be 
arbitrary. If you can try to do that, we will get more in that 
way. Okay? Thank you very much.
    Mr. Sena.

   STATEMENT OF MIKE SENA, PRESIDENT, NATIONAL FUSION CENTER 
                          ASSOCIATION

    Mr. Sena. Mr. Chairman, on behalf of the National Fusion 
Center Association, I want to thank you for inviting me today.
    Our public safety and law enforcement and intelligence 
committees have made dramatic progress in analyzing and sharing 
homeland security threat information. We are sharing more 
information more effectively than ever before. The National 
network of fusion centers is playing a key role in that. One 
indicator of that success is in the 1-year period between 
August 2013 and July 2014, suspicious activity reports 
submitted by fusion centers supported or resulted in the 
initiation of 238 FBI investigations. We are providing our 
Federal partners with relevant information that would otherwise 
be difficult or impossible for them to obtain.
    The National network of fusion centers can provide more 
comprehensive access to State and local information to support 
counterterrorism and other criminal investigations. No other 
structure can enable faster or more accurate situational 
awareness across State and local jurisdictions. No other 
construct can ensure a consistent Nation-wide focus on 
enforcing policies that affect citizens' privacy, civil rights, 
and civil liberties. While we have done great work, we know a 
lot more needs to be accomplished. I would like to highlight 
four issues as the committee considers how to help close 
information-sharing gaps.
    First, this committee released a well-researched, 
thoughtful, and constructive report on fusion centers in July 
2013. It accomplished and acknowledged that the National 
network is a National asset that needs to realize its full 
potential to help secure the homeland. The report's most 
important recommendation was calling for the development of a 
National strategy to guide the network of fusion centers into a 
more advanced and cohesive enterprise. I am happy to report we 
took that recommendation to heart, formed a multidisciplinary 
working group of State and local public safety stakeholders and 
the National Governors Association, and consulted closely with 
our Federal partners at DHS I&A, the FBI, the program manager 
for the Information Sharing Environment, and others.
    In July 2014, we published a National Strategy for the 
National Network of Fusion Centers which can be found on our 
association's website. This committee's report also recommended 
that the Federal Government develop an engagement strategy for 
working with fusion centers, which was finalized late last 
year. We are now collaborating on a dozen shared priority 
initiatives. Our commitment to improving information sharing is 
as rock-solid today as it was on September 12, 2001.
    Second, adequate funding for fusion centers is essential. 
Each fusion center is owned and operated by State and local 
governments, not the Federal Government. That is exactly the 
way it should be. State and local governments provide more than 
half of all the funding for fusion centers. But the Federal 
contribution of funding through FEMA preparedness grants 
remains critical to advancing information sharing. The law 
requires that each State allocate 25 percent of its UASI and 
SHSGP funding to law enforcement terrorism prevention 
activities, including support for fusion centers. We have been 
concerned that this requirement is not being met in some areas.
    In fact, a GAO report from November 2014 found that States 
inaccurately categorized about $60 million in grant-funded 
projects in fiscal year 2012 as related to fusion centers when, 
in fact, those funds did not support fusion centers. To fix 
this, we would suggest that a Governor-designated State law 
enforcement executive be required to review the LETP portions 
of each State's grant allocation plans to make sure those funds 
truly support prevention activities as the law intends. If 
inadequate funding weakens one node in our National network, 
then we have a new gap in homeland security information 
sharing. Congress should make sure that does not happen.
    Third, enhancing amicable collaboration in the field will 
prompt more high-impact information sharing across fusion 
centers. Part of enhancing amicable collaboration is ensuring 
that there is a DHS I&A intelligence professional in every 
fusion center. That person must have the authority to collect 
and share raw information, execute joint production, and 
effectively share information across all classification levels. 
This person has to have release authority for certain types of 
information. Because without appropriate release authority, 
there is a gap in information sharing.
    We were concerned to learn that last year's Intelligence 
Authorization Act forced a reduction in I&A's field resources. 
Despite the impact of that policy decision on State and local 
law enforcement and fusion centers, we were not consulted by 
the intelligence committees. Reducing personnel in the field 
reduces analytical collaboration and creates new information-
sharing gaps. We cannot let that happen.
    Fourth, to enable joint product development, which is a key 
advantage of Federal engagement in fusion centers, Congress 
should ensure that adequate resources support deployment of 
collaboration and communications platforms and technologies 
across fusion centers and our Federal, State, and local 
partners. Secure sharing of information at the Sensitive but 
Unclassified level is a key to Federal partners getting 
greatest benefit from State and local information and ensuring 
that State and local leaders have the best information to make 
decisions about protecting their citizens.
    I would like to thank you again for your commitment on this 
issue, Mr. Chairman. Information sharing matters every single 
day for those of us who are sworn to protect our citizens.
    I look forward to your questions.
    [The prepared statement of Mr. Sena follows:]
                    Prepared Statement of Mike Sena
                           February 26, 2015
    Mr. Chairman, thank you for inviting me to testify on this 
important topic. My name is Mike Sena and I am testifying today in my 
capacity as president of the National Fusion Center Association (NFCA). 
I am currently the director of the Northern California Regional 
Intelligence Center (NCRIC), one of the 78 fusion centers in the 
National Network of Fusion Centers (National Network). Fusion centers 
bring together law enforcement, public safety, fire service, emergency 
response, public health, protection of critical infrastructure and key 
resources (CIKR), and private-sector security personnel to understand 
local implications of National intelligence, as well as add State and 
local information and context to Federal intelligence, thus enabling 
local, State, and Federal officials to better protect our communities.
    Up front, I will say emphatically that our public safety, law 
enforcement, and intelligence communities have made dramatic progress 
over the past decade in analyzing and sharing information related to 
threats to the homeland. Information sharing on these threats--both 
criminal and terrorist in nature--has become routine. Relationships 
have been developed and sustained across State and agency lines that 
are helping investigators solve crimes and prevent further crimes. 
Technology has given us better tools to support the process of 
analyzing and sharing threat information, and enhancing situational 
awareness during critical incidents.
    An essential part of the improvement is the Federal support 
provided to fusion centers. That Federal support includes assignment of 
intelligence officers and analysts, technical assistance, training and 
exercises, linkage to key information systems, grant funding, and 
security clearances. These tools add critical value to the resources 
committed by State and local governments to make the National Network a 
foundation of homeland security information sharing. Over the past 
several years, the State and local share of budget resources allocated 
to fusion centers has grown substantially--State and local governments 
provided over half of all funding for fusion centers in fiscal year 
2014.
    Federal funding support through FEMA Preparedness Grants--SHSGP and 
UASI--remains critically important. The NFCA has joined other law 
enforcement associations on a letter to Congress urging that the Law 
Enforcement Terrorism Prevention Activities (LETP) requirement in the 
Implementing Recommendations of the 9/11 Commission Act of 2007 (Pub. 
L. 110-53) be strengthened. The law requires that 25% of SHSGP and UASI 
funding be used for ``law enforcement terrorism prevention activities'' 
and specifies some of those types of activities including support for 
fusion centers. While States have latitude to allocate funding 
according to risk and priorities, we agree with the intent of the 2007 
law and believe that terrorism prevention activities should be constant 
priorities, especially as grant funds have declined over the past 5 
years. The Government Accountability Office (GAO) found in its November 
2014 report on information sharing and fusion centers that in 2012 
States inaccurately categorized about $60 million in projects as 
``related to fusion centers'' when in fact those funds did not support 
fusion centers. As we have suggested in our letter to Congress, 
requiring a Governor-designated State law enforcement executive to 
review the LETP portion of grant plans would help to ensure those funds 
truly support terrorism prevention activities.
    Thanks to fusion centers we are sharing more information more 
effectively than ever before. This is happening despite the fact that 
no single entity has the authority to enforce effective information-
sharing practices. Because of the decentralized nature of public safety 
in America, policies on sharing information cannot be dictated by any 
one organization. Common policies and practices have been developed by 
consensus through multi-lateral and interagency policy bodies--
including the Global Justice Information Sharing Initiative (Global) 
and the Criminal Intelligence Coordinating Council (CICC) and must be 
continually reinforced through day-to-day engagements between Federal, 
State, and local partners. As you might imagine, this is 
extraordinarily difficult to achieve in practice, but we have made 
excellent progress and are continuing to build on that progress.
    Even as we pat ourselves on the back, we must recognize that we are 
not where we need to be--or where our citizens expect us to be. That is 
not because of a lack of will. I have not encountered anyone at the 
Federal, State, or local levels who does not share the same goal of 
protecting our communities. Rather, it is mainly due to policy and turf 
challenges that require persistent effort to overcome. To that end, as 
president of the National Fusion Center Association I am in discussions 
every day with my fusion center colleagues, our Federal partners, our 
counterparts in other public safety disciplines, and with private-
sector stakeholders to develop stronger processes and build stronger 
relationships. With the active support of this committee and the rest 
of Congress and our State legislatures, we must continue our commitment 
to a true Nation-wide information-sharing enterprise with the National 
Network of Fusion Centers as a centerpiece and build on the success we 
have achieved to date.
    In July of 2013, this committee released a report titled ``Majority 
Staff Report on the National Network of Fusion Centers.'' It reflected 
the painstaking work of several committee staff who visited more than 
30 fusion centers across the country and met with dozens of Federal, 
State, and local fusion center partners. This level of investigative 
effort and analytical rigor contrasts with a 2012 report from the 
Permanent Subcommittee on Investigations under the Senate Homeland 
Security and Governmental Affairs Committee that was highly critical of 
fusion centers. Among the key findings of this committee's 2013 report 
was an acknowledgement that ``the National Network is a National asset 
that needs to realize its full potential to help secure the Homeland.'' 
The report also recognized the direct impact of fusion center 
information sharing on terrorism investigations by noting that 
according to information provided by the FBI and DOJ, between December 
2008 and December 2012, ``176 SARs [suspicious activity reports] 
entered by fusion centers into the eGuardian or Shared Spaces SAR 
databases [ . . . ] resulted in the FBI opening new terrorism 
investigations.'' ``Additionally, 289 Terrorist Watchlist encounters 
reported by fusion centers enhanced existing FBI cases.'' The level of 
productivity mentioned in the report has increased since it was 
published. In the 1-year period between August 2013 and July 2014, 238 
SARs submitted by fusion centers supported FBI investigations. When I 
hear people question the value of fusion centers to Federal 
counterterrorism efforts, I point them directly to these statistics. 
The value of the National Network is crystal clear.
    From the NFCA's perspective, the most important recommendation in 
this committee's 2013 report was calling for the development of a 
National Strategy for the National Network of Fusion Centers. I am 
pleased to report that we took your recommendation to heart, formed a 
working group comprised of law enforcement and public safety groups, 
emergency management, and the National Governors Association, and 
dedicated hundreds of hours to developing that strategy. The resulting 
work--the National Strategy for the National Network of Fusion Centers 
2014-2017--was published in July of 2014. The strategy can be found at 
our website: www.nfcausa.org.
    The NFCA took the lead role in organizing the strategy development 
effort. We led a team that included representatives from the 
International Association of Chiefs of Police (IACP), the National 
Sheriffs Association (NSA), the Major Cities Chiefs Police Association 
(MCCA), the Major County Sheriffs Association (MCSA), the Association 
of State Criminal Investigative Agencies (ASCIA), the National 
Governors Association (NGA), the fire service, the Regional Information 
Sharing Systems (RISS), the High-Intensity Drug Trafficking Areas 
(HIDTA) Investigative Support Centers, and David Paulison, former 
administrator of FEMA. Throughout the process, we consulted with our 
Federal partners at Department of Homeland Security (DHS), the 
Department of Justice (DOJ), the Federal Bureau of Investigation (FBI), 
the Office of the Program Manager for the Information Sharing 
Environment (PM-ISE), the Office of the Director of National 
Intelligence (ODNI), and other field-based information-sharing 
partners. We worked with all of these partners through the Criminal 
Intelligence Coordinating Council (CICC).
    The NFCA led the strategy development effort and a dedicated team 
skillfully coordinated the tedious effort to solicit and organize 
stakeholder inputs, drafting, and feedback. During the months we spent 
working on this effort, our development team could sense progress being 
made in identifying barriers that need to be overcome and creating new 
consensus around information sharing and analytical collaboration. The 
resulting strategy objectives and priority initiatives are now driving 
efforts to improve analysis and sharing, including in areas related to 
recommendations made by this committee's 2013 report. It is an 
ambitious strategy--we specified 37 initiatives that advance each of 
the four goals--yet we are optimistic that progress will become evident 
soon.
    The strategy development process was just the beginning. While 
several strategy initiatives are already well underway, we are in 
process of developing an implementation plan that will prioritizes our 
actions through 2017 to achieve objectives under the strategy.
    In addition, this committee's 2013 report called for a Federal 
strategy to support the National Network of Fusion Centers. Late last 
year we worked with DHS Intelligence & Analysis, the FBI, and other 
members of the Information Sharing and Access Interagency Policy 
Committee (ISA-IPC--the Federal interagency forum that oversees the 
planning and implementation of the Information-Sharing Environment) to 
support their development of an ``Engagement Strategy'' which is fully 
complementary with our strategy. Working together with our Federal 
partners, we identified a dozen initiatives that will be joint 
priorities over the next several years. For the first time, there is a 
clear Federal strategy that directly supports the State and locally-
driven National Network.
    Central to that support our on-going engagement with the DHS Office 
of Intelligence and Analysis. The National Network continually relies 
on our partners at I&A. The support provided by I&A personnel assigned 
to fusion centers is critically important. I&A Under Secretary General 
Frank Taylor and his staff have invested considerable time and effort 
in determining the best path forward for I&A's deployment of personnel 
in the field. They have regularly interacted with the NFCA and sought 
our input along with that of our State and local partners. 
Unfortunately, the Intelligence Authorization Act of 2014 constrained 
I&A's choices through limiting language in the Classified annex to the 
bill--a move that was made by the intelligence committees without 
consulting any fusion center directors or other State and local 
stakeholders impacted by the decision.
    The impact of the new I&A field deployment plan won't be known 
until the changes are in place, but there is concern across the 
National Network about what it will mean for fusion center connectivity 
to certain Classified systems and information that is essential to 
sharing threat intelligence with State and local law enforcement and 
other public safety partners. One of the primary objectives in the 
fusion center strategy (and in the BENS report) is enhancing analytical 
collaboration in the field. Limiting I&A presence in fusion centers 
threatens to inhibit that collaboration.
    Every fusion center should have an I&A intelligence professional 
with the authority to collect and share raw information to include 
release authority, execute joint production, and effectively share 
information across all classification levels. Decisions regarding the 
appropriate type of intelligence professional for each fusion center 
should be the result of discussions between those State and regional 
fusion centers and I&A.
    A common misconception that is often repeated in news stories and 
in advocacy papers is that fusion centers are ``DHS fusion centers''. 
This is simply not true: DHS does not exercise operational control of 
any fusion center. State and local governments own and operate fusion 
centers, and we collaborate closely with DHS, the Department of 
Justice, and other Federal agencies to facilitate wider analysis and 
sharing of threat information.
    Each Governor designates a primary fusion center in each State. 
Together with other recognized fusion centers, these centers comprise 
the National Network of Fusion Centers. The National network is a 
decentralized, distributed network of analysts, public safety partners, 
and in a growing number of cases CIKR and private-sector partners. Most 
centers have representation from DHS and in some cases the FBI and 
other Federal investigative agencies. This organizational structure 
allows for each center to be directed according to the priorities of 
its agency sponsor, while maintaining a direct upward and downward link 
to National counterterrorism intelligence. This is squarely in line 
with what the 9/11 Commission called for in its report.
    Since fusion centers are owned and operated by State and local 
entities, there is wide variation among the centers in terms of budget 
and capabilities. Fusion center priorities in Tennessee are different 
from priorities in New York State and from our center in the San 
Francisco Bay area. The interests are different because their 
populations are different, and the fact that they are free to address 
the issues they feel need addressing is a strength of the National 
Network of Fusion Centers.
    The first of two common threads through all the centers--and the 
key Federal interest--is a link to Federal partners and to each other 
through information-sharing mechanisms. The Critical Operational 
Capabilities (COCs) that are maintained (and measured through an annual 
assessment process facilitated by DHS) in each center ensure the 
centers are ready and able to support homeland security missions 
regardless of their local priorities.
    Of central importance is the access each center has to local, 
regional, and State sources of information--public safety records, 
criminal intelligence databases, and personal relationships across 
communities--that allow the center to add local and regional context to 
National intelligence, as well as provide information and value-added 
intelligence to support counterterrorism and other criminal 
investigations that would otherwise be difficult or unlikely for lead 
Federal investigative agencies to obtain. Also critically important 
from the National perspective is that each fusion center has methods of 
distribution across local, regional, and State-wide technical and 
personal networks that Federal investigative and intelligence agencies 
could not possibly build or maintain.
    Thus, the dual-value proposition of the National Network of Fusion 
Centers is that no other organizational structure can provide faster or 
more efficient access to State and local information that may support 
National counterterrorism investigations, or enable faster or more 
efficient situational awareness across relevant jurisdictions. Refining 
the processes that allow this to happen is an on-going priority and is 
at the heart of the strategy we are executing today.
    The second of the two common threads through all centers is a focus 
on vigilantly protecting against infringements of citizens' privacy, 
civil liberties, and civil rights. Fusion centers are part of a much 
larger domestic security enterprise whose mission is the protection of 
the American people--including our ability to exercise Constitutional 
rights and be free from unwarranted Government intrusions in our lives. 
Privacy protections are not an afterthought for the NFCA, the National 
Network, or our Federal, State, and local partners. In fact, the first 
order of business last year during the development process of our 
National strategy was to address privacy, civil liberties, and civil 
rights. That is why it is literally Goal No. 1 in the strategy: 
``Uphold public confidence through the safeguarding of information and 
the protection of the person and the privacy, civil rights, and civil 
liberties of individuals.''
    All fusion centers have strong publicly-available privacy policies 
in place, we train our people on them, and we emphasize transparency. 
Privacy policies have been established across all 50 States and all 
operational fusion centers at least as comprehensive as the Information 
Sharing Environment (ISE) Privacy Guidelines. Training has occurred for 
more than 200,000 local, Tribal, State, and Federal front-line officers 
to identify and report suspicious activity in accord with the ISE 
Suspicious Activity Reporting (SAR) Functional Standard, and several 
thousand analysts have been trained in accord with vetting guidelines 
to ensure that ISE SARs are demonstrably behavior-based and their 
handling (retention, redress, and other related considerations) is 
fully compliant with privacy policies. The very first initiative in our 
strategy relates to training and education for law enforcement and 
public safety partners on fusion centers' role in the protection of 
privacy, civil rights, and civil liberties. The strategy's second 
initiative relates to conducting assessments on the impact of certain 
technologies on privacy, civil liberties, and civil rights of citizens, 
and developing policies to mitigate any impact prior to procurement. We 
look to the Technology Policy Framework published by the IACP in 
January of 2014 to support these efforts.
    Measuring the impact of terrorism prevention activities is a 
continuing challenge across all sectors--including with fusion centers. 
However, fusion centers in particular have been subject to extensive 
and rigorous assessments in recent years. The purpose has been to 
ensure that gaps in critical operational capabilities of individual 
fusion centers are addressed to ensure they can be fully capable 
participants in the National Network.
    There are quantitative measures like the number of SARs that are 
analyzed by fusion centers and shared with the FBI if they bear the 
indicators of terrorism-related activity. Those number in the hundreds. 
There are also quantitative measures like the number of ``requests for 
information'' that are generated and shared across the network of 
fusion centers. Those are also numerous. There are numbers of cases in 
which fusion centers provided critical information that enabled Federal 
partners to advance terrorism investigations. All of these measures 
indicate a high level of information sharing and analysis activity 
across all levels of Government and across jurisdictional lines. In 
other words, preparedness capability exists today that never existed in 
such a routine and organized fashion in the past. FEMA preparedness 
grants have played an essential role in the development and maturation 
of this capability.
    Other measures are tougher to quantify, yet positive outcomes 
happen virtually every day in fusion centers across the country. There 
are hundreds of anecdotal fusion center ``success stories.'' The vast 
majority of these successes relate to criminal incidents that have 
nothing to do with terrorism, but have everything to do with 
``connecting the dots'' through analytical efforts and sharing 
information to support decision makers and front-line investigators to 
protect communities.
    The imperative to better share information vertically and 
horizontally in support of terrorism prevention and counterterrorism 
investigations undergirds the recommendations made by Business 
Executives for National Security (BENS) in its report on domestic 
security published in 2014. I believe the BENS report contains several 
very helpful recommendations and I agree with many of them. In 
particular, establishing a domestic threat framework for assessing and 
prioritizing threats and information needs; enhancing intelligence 
analyst capabilities at all levels and establishment of standardized 
training for intelligence personnel; and improving the flow of 
information related to counterterrorism investigations to State and 
local partners in real time would improve our overall domestic security 
posture.
    Some of the assumptions of the BENS report, however are not fully 
reflective of the role of State and local law enforcement and public 
safety--particularly fusion centers--in supporting National 
counterterrorism efforts. Counterterrorism analysis and information 
sharing functions are components of the fusion center mission but they 
are not--and they should be--the sole components. That is because our 
fusion centers report to Governors, State law enforcement executives, 
county, and municipal public safety leadership. They do not report to 
the Federal Government, nor should they. The vast majority of fusion 
centers are ``all-crimes'' centers, which reflects the fact that 
criminal intelligence analysis, data sources, interagency 
relationships, and information-sharing capabilities resident in the 
centers are useful for all types of investigations--not just terrorism. 
While the Federal interest in fusion centers relates primarily to their 
ability to contribute to counterterrorism efforts, the reality is that 
the fusion process is effective for any public safety effort. Whether 
the crime is terrorism, child abduction, gang violence, or auto theft, 
the fusion process maximizes efforts to prevent, deter, or investigate 
the crime. Institutionalized collaboration through information sharing 
and co-location is effective no matter the nature of the crime. Our 
Federal partners benefit from the all-crimes approach because it 
amounts to ``drilling'' on real-world scenarios using the fusion center 
critical operational capabilities every day. When a terrorism threat 
emerges, fusion center participants and customers ``know the drill.''
    The BENS report recommends the establishment of regional fusion 
centers on top of what we have today. I fully understand the intent of 
that recommendation, but I believe it could have a negative effect on 
the ability of fusion centers in those areas to accomplish their core 
missions in support of chiefs, sheriffs, State investigative agencies, 
State police agencies, and Governors. The fact is that fusion centers 
are already performing the functions that are called for in the BENS 
report, and with the new National Strategy for the National Network of 
Fusion Centers being implemented, I am optimistic that the support 
provided by the National Network to counterterrorism investigative 
partners will increase.
    I am still often asked whether fusion centers duplicate the FBI's 
JTTFs. This committee should understand that JTTFs are Federally-run 
investigative bodies that support the FBI's unique mission to 
investigate terrorism threats in this country. Fusion centers play a 
much different role; they're not only information-sharing hubs in 
States and metropolitan regions. Fusion centers are where we train a 
cadre of terrorism liaison officers (TLOs), including police officers, 
firefighters, EMS workers, and our private-sector partners on 
indicators and warnings of terrorism. Fusion centers have the ability 
to catalogue critical infrastructure in each State and region and 
analyze incoming suspicious activity reports (SARs) against the 
National threat picture and against what we know about our critical 
infrastructure. We have the ability to then rapidly share information 
and intelligence among the entire National Network and with the FBI. 
But often that SAR information has no nexus to terrorism. It's about 
drug dealing or gang activity or firearms trafficking or mortgage 
fraud. So the all-crimes approach mentioned above gives us the ability 
to analyze that information and funnel it to the right place. And we 
know that, sometimes, information that at first blush appears to be 
criminal in nature--the Torrance, California gas station robberies, the 
smuggling of cigarettes in North Carolina, the sale of pseudoephedrine 
in California--actually is linked to terrorist activity.
    It does not make sense to try to separate crime and terror in our 
daily work of analyzing threat information and criminal activity. We 
have to knock that wall down. If we're going to continue to improve, we 
have to understand that the sharing of information makes communities 
safer. Our ultimate goal is to prevent terrorism. But in every 
community across the country there are violent crimes that terrorize 
neighborhoods and families and affect lives and businesses every day. 
Fusion centers are uniquely situated to do things that JTTFs or no 
other program can do. We can bring together disparate resources, data 
sets, analytical perspectives, and personnel in order to analyze and 
share information on terror, crime, or other threats to public safety. 
We can make sure that JTTFs get the information they need, but that the 
DEA and HSI and chiefs and sheriffs and governors get the information 
they need about non-terrorism public safety threats as well.
    Fusion centers are increasingly contributing analytical and 
information-sharing efforts to address threats in the cyber realm 
against law enforcement, other Government agencies, and the private 
sector. Last year the NFCA created a Cyber Threat Intelligence 
Subcommittee to organize fusion center engagement in multi-stakeholder 
efforts to clarify ``lanes in the road'' for cyber threat analysis and 
information sharing, and to support efforts across the National Network 
to build cyber threat analysis and sharing capabilities. As this 
committee knows, cyber threats come in all sizes and shapes. Individual 
citizens have their identities stolen and personal credit wiped out, 
while Government agencies and companies face threats to their daily 
operations. An increasing number of fusion centers have analytical 
personnel that are trained in cyber threat analysis. And an increasing 
number of fusion centers are being asked to support cyber threat 
information sharing.
    One recent example of the role fusion centers are playing in the 
cyber threat domain was in late November and early December 2014 during 
the events in Ferguson, Missouri. Cyber threats and attacks directed at 
public safety agencies had a significant impact during that period. To 
facilitate situational awareness and share information across agencies 
about these threats, the NFCA Cyber Intelligence Network (CIN) hosted a 
virtual situational awareness room (referred to as CINAWARE) on the 
Homeland Security Information Network (HSIN). More than 350 individuals 
from fusion centers and other Federal, State, and local agencies around 
the country participated in the CINAWARE room between mid-November and 
early December, with an average of 50 to 90 users in the room at any 
given time each day. The room was supported 24/7 including overnight 
support from the Multi-State Information Sharing and Analysis Center 
(MSISAC). During that period, there were more than 250 queries 
submitted and answered via the room, enabling rapid sharing of 
information with decision makers. Leaders in State, local, and Federal 
agencies were being briefed on the information from the CINAWARE room. 
That level of threat information sharing was impossible only a few 
years ago, yet it is becoming essential.
    Mr. Chairman, on behalf of the National Fusion Center Association, 
thank you for inviting me to testify today. I commend you for your 
focus on this topic. It should continue to be a high priority for this 
committee and for all of Congress--especially in this dynamic threat 
environment. Please know that my colleagues across the country together 
with all of our partners at the State, local, and Federal levels are 
working hard every day to get better and live up to the expectations of 
our citizens. We look forward to continuing to work closely with the 
committee to help meet those expectations.

    Mr. King. Thank you, Mr. Sena.
    Now Chief Beary.

     STATEMENT OF RICHARD BEARY, PRESIDENT, INTERNATIONAL 
                ASSOCIATION OF CHIEFS OF POLICE

    Chief Beary. Good afternoon, Chairman King, and Members of 
the subcommittee.
    I am pleased to be here today on behalf of the 
International Association of Chiefs and Police. The IACP is the 
world's largest association of law enforcement leaders, with 
more than 22,000 members in 98 different countries. For over 
120 years, the IACP has been launching internationally-
acclaimed programs, speaking out on behalf of law enforcement, 
conducting ground-breaking research, and providing exemplary 
programs and services to the law enforcement profession around 
the globe.
    The importance of information sharing. The 9/11 terrorist 
attacks taught us that information exchange between local, 
State, Tribal, and Federal law enforcement and Homeland 
Security partners is absolutely critical to ensuring the safety 
and security of our Nation and the communities that we serve. 
As the 9/11 commission properly noted, the lack of effective 
information and intelligence sharing amongst Federal, State, 
Tribal, and local law enforcement agencies was a major handicap 
in our Nation's homeland security efforts.
    However, due to the hard work of our Nation's law 
enforcement professionals, advances in technology, and 
increased partnership and trust between Federal, State, and 
local, we have improved this tremendously in the last 13 years 
that have passed since 9/11. As a result, our capacity to 
identify, investigate, prevent, and respond to these events has 
enhanced significantly.
    Collaboration, information, and intelligence sharing 
amongst all the partner agencies needs to continue. Although we 
have made great strides, our work is certainly not done. For 
this reason, the IACP continues to work closely with its 
partners, making sure that communicating and the processing of 
information is as easy and as efficient as possible.
    Through a range of efforts, from clarifying how and to whom 
one should report suspicious activities, and implementing 
technological enhancements, these initiatives aim to improve 
the ability on all levels of law enforcement to combat the 
increasingly diverse threats facing the United States. These 
efforts include the work of the Unified Messaging Task Force, 
the National SAR Initiative, the ISE Shared Space, N-Dex, E-
Guardian, the National Network of Fusion Centers, and the 
campaign ``See something, say something.'' All of these efforts 
are designed to enhance law enforcement's ability to quickly 
and effectively share information among and between the 
essential partners at Federal, State, local, and Tribal. While 
there are still areas that individuals within the law 
enforcement community can improve, there has been substantial 
movement in the right direction.
    Now, I have had the opportunity to review the report of the 
Business Executives for National Security, BENS, and I am 
pleased to say that, in general, the recommendations contained 
within the report are consistent with the work and 
recommendations the IACP has done over the last 14 years. In 
particular, I am very pleased that the report recognizes the 
essential and critical role that must be played by State, 
local, and Tribal law enforcement officers in building and 
sustaining an effective Nation-wide criminal information- and 
intelligence-sharing system.
    The IACP strongly agrees with the report's recommendation 
that ownership and management of the integrated fusion centers 
should continue to be managed by State and local stakeholders 
with Federal entities supporting those centers. However, while 
the report appropriately recognizes the need for robust 
information-sharing capability in major urban centers, we 
cannot and must not overlook the importance of fully engaging 
agencies in non-urban areas.
    Experience has repeatedly shown us that while attacks take 
place in densely-populated areas, planning and preparation for 
these crimes often occur in small or rural communities. Failure 
to ensure that these agencies are actively engaged in our 
National information and intelligence-gathering efforts, 
undermines our efforts to protect the public.
    I want to talk just briefly about going dark. Of course, 
the information law enforcement is able to share, we first have 
to have the ability to obtain it. Unfortunately, those of us 
who are charged with protecting the public aren't always able 
to access the evidence we need to prosecute crime and prevent 
terrorism, even though we have a lawful authority to do so.
    We have the legal authority to intercept and access 
communications and information pursuant to the appropriate 
legal processes, but we lack the technology to do so. The law 
has not kept pace with technology. This disconnect has created 
a significant public safety problem which is often referred to 
as going dark. In response to this critical going dark issue, 
the IACP 2 weeks ago held a summit to explore operational, 
technological, and policy changes that need to be made while 
ensuring that civil rights and civil liberties are protected. 
It is important to note that law enforcement is not seeking 
broad, new law enforcement or surveillance capabilities, just 
currently trying to stay and be able to gather the evidence 
that the Constitution and court orders allow us to do.
    These technological issues, such as encryption capabilities 
that are being built in new digital devices by companies such 
as Apple and Google, while we have the legal authority, we do 
not have the technological capability to get that data. There 
are legal issues, policy issues. The Communications Assistance 
for Law Enforcement, CALEA, needs to be changed to incorporate 
these new communication technologies. Critical investigations 
increasingly rely on digital evidence lawfully captured from 
smart phones, tablets, and other communications devices. Our 
inability to access this data, either because we cannot break 
the encryption algorithm resident on the device or because the 
device does not fall under CALEA or the developer has not built 
the access route, means that lives may well be at risk or lost 
and those guilty parties may remain free because we do not have 
the capability.
    So, on behalf of the IACP, thank you for allowing us this 
opportunity to be before you today. We look forward to taking 
your questions.
    Thank you.
    [The prepared statement of Chief Beary follows:]
                  Prepared Statement of Richard Beary
                           February 26, 2015
    Good afternoon Chairman King and Members of the subcommittee: I am 
pleased to be here today on behalf of the International Association of 
Chiefs of Police.
    The IACP is the world's largest association of law enforcement 
leaders, with more than 22,000 members in 98 different countries. For 
over 120 years, the IACP has been launching internationally-acclaimed 
programs, speaking out on behalf of law enforcement, conducting ground-
breaking research, and providing exemplary programs and services to the 
law enforcement profession around the globe.
                          iacp's past efforts
    The IACP has a long history of commitment to information sharing. 
In 2002, the IACP convened the ``National Summit of Criminal 
Intelligence Sharing''.
    The findings of this summit provided the groundwork for the 
adoption of the National Criminal Intelligence Sharing Plan and led to 
the creation of the Criminal Intelligence Coordinating Council. The 
Criminal Intelligence Coordinating Council (CICC), established in May 
2004, is made up of members representing law enforcement and homeland 
security agencies from all levels of government and is an advocate for 
State, local, and Tribal law enforcement and their efforts to develop 
and share criminal intelligence for the purpose of promoting public 
safety and securing the Nation. The CICC operates at the policy level 
setting priorities, directing research, and preparing advisory 
recommendations.
    In 2007, the IACP held a follow-up summit entitled ``Criminal 
Intelligence Sharing: Measuring Success and Setting Goals for the 
Future''. This summit reviewed the work that had been accomplished 
following the 2002 summit and identified remaining gaps and weaknesses 
in our National criminal information and intelligence-sharing 
framework.
    Since the time, the IACP has worked closely with a wide array of 
Federal, State, local, and Tribal agencies on a number efforts to 
promote greater cooperation and collaboration.
                   importance of information sharing
    The 9/11 terrorist attacks taught us that information exchange 
between local, State, Tribal, and Federal law enforcement and homeland 
security partners is absolutely critical to ensuring the safety and 
security of our Nation and the communities we serve. As the 9/11 
commission properly noted, the lack of effective information and 
intelligence sharing among Federal, State, Tribal, and local law 
enforcement agencies was a major handicap in our Nation's homeland 
security efforts.
    However, due to the hard work of our Nation's law enforcement 
professionals, advances in technology, and increased partnership and 
trust between Federal, State, and local authorities our ability to 
share information has improved tremendously in the 13 years that have 
passed since 9/11. As a result, our capacity to identify, investigate, 
prevent, and respond to these events has enhanced significantly.
    Collaboration, information, and intelligence sharing among Federal, 
State, Tribal, and local law enforcement agencies needs to continue. 
Although we have made great strides, our work is not done.
    For this reason, the IACP continues to work closely with its 
Federal, State, and local partners to make the processes for 
communicating and sharing information as easy and efficient as 
possible. Through a range of efforts, from clarifying how and to whom 
one should report suspicious activity to and implementing technological 
enhancements for information-sharing systems, these initiatives aim to 
improve the ability of all levels of law enforcement to combat the 
increasingly diverse threats facing the United States.
    These efforts include the work of the Unified Messaging Task Force; 
the National SAR Initiative; the ISE Shared Space; N-Dex; E-Guardian; 
the National Network of Fusion Centers and, ``If you see something, say 
something,''
    All of these efforts are designed to enhance law enforcement's 
ability to quickly and effectively share information among and between 
essential Federal, State, and local law enforcement partners. While 
there are still areas that individuals within the law enforcement 
community can improve, there has been substantial movement in the right 
direction.
            business executives for national security report
    I have had the opportunity to review the report of the Business 
Executives for National Security (BENS) and I am pleased to say that, 
in general, the recommendations contained within the report are 
consistent with the work and recommendations of the IACP over the last 
14 years. In particular, I am very pleased that the report recognizes 
the essential and critical role that must be played by State, local, 
and Tribal law enforcement officers in building and sustaining an 
effective, Nation-wide criminal information and intelligence-sharing 
system.
    The IACP strongly agrees with the reports recommendation that 
ownership and management of the integrated fusion centers should 
continue to be managed by State and local stakeholders, with the 
Federal entities supporting and collaborating with their State and 
local counterparts through their counterterrorism and other domestic 
security efforts.
    However, while the report appropriately recognizes the need for a 
robust information-sharing capability in major urban centers, we 
cannot, and must not, overlook the importance of fully engaging 
agencies in non-urban areas. Experience has repeatedly shown that while 
attacks may take place in densely-populated areas, planning and 
preparation for these crimes often occur in small or rural communities. 
Failure to ensure that these agencies are actively engaged in our 
National information- and intelligence-sharing efforts would greatly 
undermine our efforts.
                               going dark
    Of course, before law enforcement is able to share information and 
intelligence, it must first have the capability to obtain it. 
Unfortunately, those of us who are charged with protecting the public 
aren't always able to access the evidence we need to prosecute crime 
and prevent terrorism even though we have the lawful authority to do 
so. We have the legal authority to intercept and access communications 
and information pursuant to appropriate legal processes, but we lack 
the technological ability to do so.
    The law hasn't kept pace with technology, and this disconnect has 
created a significant public safety problem, which is what we mean when 
we refer to ``Going Dark.''
    In response to this critical issue, earlier this month the IACP 
held a ``Going Dark'' Summit to explore the technological, operational, 
and policy changes needed order to address these issues, while 
respecting the privacy interest, civil rights, and civil liberties of 
the public.
    It is important to note that law enforcement is not seeking broad 
new surveillance capabilities above and beyond what is currently 
authorized by the U.S. Constitution or by lawful court orders, nor are 
we attempting to access or monitor the digital communications of all 
citizens. Rather, we are simply seeking the ability to lawfully access 
information that has been duly authorized by a court in the limited 
circumstances prescribed in specific court orders--information of 
potentially significant consequence for investigations of serious 
crimes and terrorism.
    There are technological issues, such as the encryption capabilities 
that are being built in new digital devices, by such companies as Apple 
and Google, but there are also legal and policy issues, such as the 
Communications Assistance for Law Enforcement Act (CALEA), which needs 
to be changed to incorporate new communications technologies.
    Critical investigations increasingly rely on digital evidence 
lawfully captured from smart phones, tablets, and other communications 
devices. Our inability to access this data, either because we cannot 
break the encryption algorithm resident in the device, or because the 
device does not fall under CALEA or the developer has not built the 
access route, means that lives may well be at risk or lost, and that 
guilty parties remain free.
    We recognize the public's demand for privacy, and we respect the 
legal and Constitutional provisions that are designed to ensure civil 
rights and civil liberties of our citizens, but we must act to address 
these issues for our own safety and security.
    In conclusion, terrorism prevention and protection of the American 
people can be achieved only when law enforcement works together, 
communicates effectively and consistently, and looks for solutions. We 
are committed to meeting this challenge and continue to work each day 
to ensure that we fulfill our mission of protecting the public.

    Mr. King. Thank you, Chief, for your testimony.
    Dr. Alexander, you are recognized.

  STATEMENT OF CEDRIC ALEXANDER, NATIONAL PRESIDENT, NATIONAL 
    ORGANIZATION OF BLACK LAW ENFORCEMENT EXECUTIVES (NOBLE)

    Mr. Alexander. Thank you, sir.
    Chairman King, Ranking Members Thompson and Higgins, and 
Members of the subcommittee, I bring you greeting on behalf of 
NOBLE and the executive board.
    Again, my name is Dr. Cedric Alexander, the national 
president of NOBLE and currently public safety director in 
DeKalb County, Georgia. It is an honor to be here to 
participate as a witness in the House's hearing on what 
progress has been made to improve the amount and quality of 
information shared between Federal, State, and local law 
enforcement.
    I want to acknowledge and thank Chairman King for holding 
this hearing and thank Ranking Members Higgins and Thompson for 
inviting me to participate. I speak to you from a perspective 
of a person who has been in law enforcement for over 37 years 
and also who has held a number of positions throughout the 
Federal, county, and State level in law enforcement across this 
country.
    Information sharing among law enforcement agencies at the 
Federal, State, and local level has evolved in the years since 
9/11. Today, local agencies regularly meet with State and 
Federal partners to facilitate the flow of information. In 
DeKalb County, our department has liaison offers embedded in 
ATF, the FBI, DEA, ICE, U.S. Marshals, and the Georgia 
Information Sharing Analysis Center, often refers to as GSAC.
    Our experiences with these relationships have been 
exemplary. However, these relationships are personality-driven 
and sometimes not based on established systems. One of the most 
beneficial factors in developing and maintaining these 
relationships is the networking of individuals through 
meetings, task force exercises, investigations, and training.
    Even with the abundance of cooperation with local, State, 
and Federal partners, there are areas for improvement. One of 
these areas, of course, is the lack of a centralized source of 
information. Currently the sources of information, of 
intelligence information available to law enforcement are 
decentralized in multiple websites and databases managed by 
different Federal and State agencies. Most of these sources are 
subject-specific repositories of information. Often this 
information does not cross-pollinate to other sources of 
information. This means that an agency seeking information must 
know where to look for the information, possess the proper 
clearances to access the information, and hold accounts to the 
specific source of information.
    Federal and State agencies have strived to ensure that most 
local agencies have access to these sources. However, to 
further compound this issue, often intelligence information is 
Classified and most agencies do not have personnel that possess 
the required security clearance. The process to obtain security 
clearance for local agents is costly and protracted. Beyond 
simply assessing the intelligence information, law enforcement 
requires software, technology, and training to standardize 
their capabilities with state-of-the-art equipment that will 
increase their total effectiveness.
    In Georgia, a project to address these requirements was 
established. The project called the Georgia Terrorism 
Intelligence Project, often referred to as GTIP, was originally 
funded by a DHS grant and budgeted for $2.5 million in 2007 but 
was reduced to the current budget of $90,000. These cuts 
reduced GTIP budget to only 4 percent of its original budget. A 
continued commitment to fund GTIP would have aborted some of 
the other deficiencies that I am speaking about today.
    Although the relationship between local, State, and Federal 
agencies has vastly improved, there are still instances of 
restraint in the sharing of information. To a degree, this is 
most likely to result of how most agencies' successes are 
measured. These instances are the exception and not the norm, 
but they do exist. Another area that has significant 
deficiencies in relationships with non-Governmental 
organizations and the private sector. With over 80 percent of 
our Nation's critical infrastructure being owned and protected 
by the private sector, it stands to reason that these 
partnerships are paramount to our National preparedness and law 
enforcement mandate.
    Lastly, as we have seen in recent years, there is a 
emerging threat from cyberterrorism. Local law enforcement must 
play a role in detecting, deterring, and mitigating these 
threats. The intelligence-sharing relationship with local, 
State, and Federal law enforcement agencies, as well as 
relationships with NGOs and private sector will be key in 
combatting this threat. Local law enforcement will need tools, 
training, and, above all, the continued support of our Nation 
to succeed.
    Very quickly, a couple of recommendations to address the 
gaps in accessing quality intelligence shared among State, 
local, and Federal law enforcement agencies. In prioritizing 
what is needed to move forward in the amount and quality of 
information shared between Federal, State, and local law 
enforcement, I recommend a centralized source of intelligence 
information. The first step will save time, prevent duplication 
of work, and standardize the quality intelligence information.
    The Department of Homeland Security, Information Network is 
a move towards a centralized source of intelligence. However, 
it is not user-friendly and still lacks information found 
within other sources managed by other agencies. Further, the 
compartmentalization of information with HSIN is 
counterproductive to the sharing of information. To alleviate 
some of the compartmentalization of intelligence information 
and foster an environment of sharing of this information, the 
path of local agencies to acquire security clearances must be 
streamlined and supported by State and Federal partners. The 
need for these clearances at the local level cannot be 
understated.
    Next, training is necessary so that the value of the 
intelligence is realized and where to go with it. Information 
is power. However, the collection of information is useless if 
the value of it is not realized. Local, State, and Federal law 
enforcement must be able to develop intelligence and then know 
with whom to share the intelligence. Too often it can be said 
that the flow of intelligence information is one way, the local 
agencies to the State and Federal agencies. This must be 
addressed and, as we have experienced in DeKalb County, can be 
lessened with the fostering of relationships with agencies at 
all levels.
    Finally, a commitment to fund these initiatives and further 
their effectiveness is the only way to ensure local, State, and 
Federal law enforcement will prevail in the current threat 
environment. Projects like GTIP are needed in every State. 
Every local law enforcement agency has a need to collect, 
analyze, and share intelligence information. They require the 
tools and funding to accomplish this mission.
    As we have all witnessed in recent years, whether it was 
the Boston Marathon bombing, the Washington Naval Yard 
shootings, the Queens, New York hatchet attack or the terrorist 
attacks in Norway, Paris, Ottawa, and Copenhagen. Today, local 
law enforcement is essential in detecting, deterring, 
mitigating, and responding to these threats. The need for 
quality intelligence information is greater now than at any 
time in this country's history.
    Thank you very much, sir.
    [The prepared statement of Dr. Alexander follows:]
                 Prepared Statement of Cedric Alexander
                           February 26, 2015
    Chairman King, Ranking Members Thompson and Higgins, and Members of 
the subcommittee, I bring you greetings on behalf of the executive 
board and members of the National Organization of Black Law Enforcement 
Executives--NOBLE.
    My name is Dr. Cedric Alexander, national president of NOBLE, and 
deputy chief operating officer for public safety, DeKalb County, GA. It 
is an honor to be here today to participate as a witness in the House's 
hearing on ``what progress has been made to improve the amount and 
quality of information shared between Federal, State, and local law 
enforcement''. I want to acknowledge and thank Chairman King for 
holding this hearing and thank Ranking Member Higgins and Thompson for 
inviting me to participate.
    I speak to you from the perspective of a person who has over 37 
years of law enforcement experience and who has held positions at the 
highest levels both at the Federal, county, and city levels. In 
addition, I hold a Ph.D. in clinical psychology.
    Information sharing among law enforcement agencies at the Federal, 
State, and local level has evolved in the years since 9/11. Today local 
agencies regularly meet with State and Federal partners to facilitate 
the flow of information. In DeKalb County, our police department has 
liaison officers embedded in the ATF, FBI, DEA, ICE, U.S. Marshals, and 
the GA Information Sharing Analysis Center (GISAC). Our experiences 
with these relationships have been exemplary. However, these 
relationships are personality-driven and not based on established 
systems. One of the most beneficial factors in developing and 
maintaining these relationships is the networking of individuals 
through meetings, task forces, exercises, investigations, and training.
    Even with the abundance of cooperation with local, State, and 
Federal partners, there are areas for improvement. One of these areas 
is the lack of a centralized source of information. Currently the 
sources of intelligence information available to law enforcement are 
decentralized in multiple websites and databases managed by different 
Federal and State agencies. Most of these sources are subject-specific 
repositories of information. Often this information does not cross-
pollinate to other sources of information. This means that an agency 
seeking information must know where to look for the information, 
possess the proper clearances to access the information, and hold 
accounts to the specific source of information.
    Federal and State agencies have strived to ensure that most local 
agencies have access to these sources; however, to further compound 
this issue, often intelligence information is Classified and most 
agencies do not have personnel that possess the required security 
clearance. The process to obtain security clearances for local agencies 
is costly and protracted.
    Beyond simply accessing intelligence information, local law 
enforcement requires software, technology, and training to standardize 
their capabilities with state-of-the-art equipment that will increase 
their total effectiveness. In Georgia a project to address these 
requirements was established. The project is called the Georgia 
Terrorism Intelligence Project (GTIP). GTIP was originally funded by a 
DHS grant that budgeted $2,500,000.00 in 2007 but was reduced to the 
current budget of $90,000.00. These cuts reduced GTIP's budget to only 
4% of its original budget. A continued commitment to fund GTIP could 
have avoided some of the other deficiencies that I am speaking about 
today.
    Although the relationship between local, State, and Federal 
agencies has vastly improved, there are still instances of restraint in 
the sharing of information. To a degree, this is most likely a result 
of how most agencies successes are measured. These instances are the 
exception and not the norm, but they do exist.
    Another area that has significant deficiencies is the relationships 
with Non-Governmental Organizations (NGO) and the private sector. With 
over 80% of our Nation's critical infrastructure being owned and 
protected by the private sector, it stands to reason that these 
partnerships are paramount to our National preparedness and law 
enforcement mandate.
    Lastly, as we have all seen in recent years there is an emerging 
threat from cyber terrorism. Local law enforcement must play a role in 
detecting, deterring, and mitigating these threats. The intelligence 
sharing and relationships with local, State, and Federal law 
enforcement agencies as well as relationships with NGOs and the private 
sector will be key in combating this threat. Local law enforcement will 
need tools, training, and above all the continued support of our Nation 
to succeed.
 recommendations to address the gaps in accessing quality intelligence 
    shared among local, state, and federal law enforcement agencies
    In prioritizing what is needed to move forward in the amount and 
quality of information shared between Federal, State, and local law 
enforcement, I recommend a centralized source of intelligence 
information. This first step will save time, prevent duplication of 
work, and standardize the quality of intelligence information. The 
Department of Homeland Security's Homeland Security Information Network 
(HSIN) is a move towards a centralized source of intelligence; however, 
it is not user-friendly and still lacks information found within other 
sources managed by other agencies. Further, the compartmentalization of 
information within HSIN is counterproductive to the sharing of 
information.
    To alleviate some of the compartmentalization of intelligence 
information and foster an environment of sharing of this information, 
the path for local agencies to acquire security clearances must be 
streamlined and supported by State and Federal partners. The need for 
these clearances at the local level cannot be understated.
    Next, training is necessary so that the value of the intelligence 
is realized and where to go with it. Information is power; however, the 
collection of information is useless if its value is not realized. 
Local, State, and Federal law enforcement must be able to develop 
intelligence and then know with whom to share the intelligence. Too 
often it can be said that the flow of intelligence information is one 
way, the local agencies to the State and Federal agencies. This must be 
addressed and as we have experienced in DeKalb County, can be lessened 
with the fostering of relationships with agencies at all levels.
    Finally, a commitment to fund these initiatives and further their 
effectiveness is the only way to ensure local, State, and Federal law 
enforcement will prevail in the current threat environment. Projects 
like GTIP are needed in every State. Every local law enforcement agency 
has a need to collect, analyze, and share intelligence information. 
They require the tools and funding to accomplish this mission.
    As we have all witnessed in recent years, whether it was the Boston 
Marathon bombings, the Washington Naval Yard shootings, the Queens New 
York hatchet attack or the terrorist attacks in Norway, Paris, Ottawa, 
and Copenhagen; today local law enforcement is essential in detecting, 
deterring, mitigating, and responding to these threats. The need for 
quality intelligence information is greater now than at any time in our 
Nation's history.
    By implementing these recommendations on centralization, training, 
and funding, we believe that real progress can be made in improving not 
just the quantity but also the quality of intelligence information 
shared between local, State, and Federal law enforcement. This would 
greatly improve the Nation's preparedness and overall security. I thank 
the subcommittee for the opportunity to testify and I would be happy to 
answer any questions.

    Mr. King. Thank you, Dr. Alexander. I note that you have a 
doctorate in clinical psychology.
    Mr. Alexander. Yes, sir.
    Mr. King. If you ever want to leave law enforcement, you 
can have a full-time job down here.
    Mr. Alexander. Thank you very much.
    Mr. King. Now I would like to ask unanimous consent to 
allow our colleague, Congressman Langevin, to participate in 
the subcommittee hearing.
    Without objection, so ordered.
    My first question is we saw yesterday in New York the three 
alleged terrorists who were arrested, indicted. That was an 
investigation that was going on for some time. It involved 
potential attacks in New York itself, against the President of 
the United States, and also traveling overseas. So it involved 
multiple locations. In a case like that, what is your 
experience, what is your understanding of how that type of 
information is shared throughout the progress of the 
investigation with local law enforcement? I guess we will start 
with Mr. Sena.
    Mr. Sena. The sharing of the information, that process, you 
know, there has been a lot of discussions after Boston, you 
know, what was the local police department's engagement, what 
was their involvement? Even in the JTTF, which does a fine job, 
but you have individual officers that are assigned. Their job 
is to do investigations. In these types of cases, the goal 
should be on the front end, the analysts, State and local 
enforcement using their analysts to review that information.
    So in these types of cases, it should be, as the case is 
being addressed and progressed and assigned, that you have that 
State and local input from the start. That doesn't always 
happen, sir, I have to tell you that now, across the country. 
But there is so much that State and locals have to contribute 
that could and should be part of every process that, you know, 
every Federal agency, including the JTTF, does to support their 
investigations.
    Mr. King. Chief Beary, I will ask you the same question. 
Also, expand on what Mr. Sena said. I would think the local cop 
on the beat could well have intelligence on these individuals 
that the FBI may not be aware of. They may have sources. They 
may have background on them. So what is your experience or your 
understanding of how the information is shared and at what 
stage?
    Chief Beary. Well, Chairman, you are absolutely correct. 
Let's face it, 98 percent of the law enforcement work that gets 
done in this country is done by State and local officers, that 
cop on the beat that knows who belongs and who doesn't and 
recognizes that suspicious activity. That is one of the 
challenges that face us, is generally the Federal Government, 
the Federal agencies do not have access to those databases. 
Usually we find out after the fact that that person was stopped 
15 times by the police, had been arrested previously, had a lot 
of different contacts. That is one of the places that 
absolutely needs to be improved across the spectrum. The data 
is there. Sometimes the databases do not allow that information 
to transact.
    While I have seen--certainly, especially, particularly 
involving the FBI, the communication has been the best that I 
have seen it in the last 37 years. Cedric and I started the 
same year. I see a vast improvement. I think that the data 
exchange has to happen quicker. They need access to that local 
data. Because the information is there. It is just tying it 
altogether and making sure it gets in the right hands.
    Mr. King. Dr. Alexander.
    Mr. Alexander. Yes, sir. Yes, you know, for years I have 
been saying in this profession that a lot of the source of 
information, particularly as it pertains to intelligence 
information that we are all are--and the things that have been 
happening in and around this country for the last number of 
years, a lot of this information, quite frankly, was or could 
have been discovered on the streets of many of our cities.
    Because if we think about it, those who come into this 
country, infiltrate our communities, they are on the streets 
somewhere. Then their interactions on the street where, as you 
heard Chief Beary just mention, this is where our officers are. 
This is where they have contacts. Oftentimes, this is where 
they live. There is no greater source of intelligence gathering 
in my opinion and I have been doing this for 38 years this 
year. There is no greater source than information that is 
garnered from the streets and from our police officers.
    One of the greatest challenges, and I think my colleagues 
here would agree, is that local funding that is needed for 
training in software, in all the latest technology that is out 
there that is available becomes very hard for local law 
enforcement to access or to gain. If we do gain that 
information, it is from our Federal partners oftentimes. They 
are great about sharing information.
    However, what we do know is that the sooner we can gather 
information, collect information, and analyze that information, 
we also have an opportunity at a local level to disseminate 
that information both up, down, and across all law enforcement 
communities. I think it will prove to be of great benefit. But 
as you heard from my testimony is that funding has become a 
real critical issue for many of the local and State agencies 
that just don't have the money.
    For an example, in my community alone, we don't even have 
the money right now to buy the basic software that will tell 
us, as relates to social media who is gathering where and when. 
That is basic information. Now, our Federal partners may obtain 
that information. But oftentimes by the time they get it, we 
would have known about it much earlier than by the time they 
get it to us, had we had the funding in order to do the things 
that we need to do at the local level.
    Mr. King. Thank you, Doctor.
    The Ranking Member, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman. I am curious, the, 
you know, police work--police officers and police agencies take 
a lot of pride in what they do and expend a lot of resources to 
do what it is they do.
    So I suspect that, you know, one of the reasons you had a 
problem in the first place is because of turf battles, you 
know, the reluctance to share information so as to potentially 
harm an on-going investigation that may be conducted by one 
agency. Thus, the success or failure of that investigation 
determines how that agency is viewed. To what extent do those 
turf battles still exist? I would also ask, you know, who has 
jurisdictional control over the fusion center? Does it differ 
with each one? Or is it based on, you know, the levels of 
Government, the local level being at the low end and then the 
Federal level being at the high end in terms of the control? 
Each of you I would ask that question of.
    Mr. Sena. For the fusion centers, as far as who has the 
authority, each fusion center is designated by the Governor of 
each State. As far as, you know, who actually runs that, it 
depends on which location they are in, how they were formed. 
Some it is State police. Some it is Attorney General Offices 
from the State. Some it is local organizations. Mine is kind-of 
unusual because it started out within the HIDTA program, High-
Intensity Drug Trafficking Area. So it depends on the mold of 
the jurisdiction of where they are located and who wants to 
take that kind of fiscal authority and leadership role.
    As far as the turf battles, I can tell you that, you know, 
early on in my career, and we all saw this, where folks did not 
want to share their investigative information, there were 
systems put in place, like the Regional Information Sharing 
System, to bring law enforcement, to give them a place to put 
locations where they were going to do arrests, locations were 
there was going to be an event, subjects that they were 
investigating. That became an incredible resource that was 
developed over 40 years ago to help law enforcement to overcome 
those turf battle issues.
    I have got to give great credit to the attorney general of 
the United States on the fact that they came out with a memo 
last May that mandates that every component within DOJ law 
enforcement component deconflicts, that they get over those 
turf issues, that they get over those constraints that they put 
on themselves to share that information. Now unfortunately, 
that same movement hasn't come to place in the Department of 
Homeland Security and their components. But every one in the 
country should be deconflicting.
    The hard part on this for the Regional Information Sharing 
System is 2 years ago, their budget was reduced by 40 percent. 
Their whole job is to protect law enforcement and allow those 
who have gotten over the turf battle issues to share data, 
share investigative information and put investigators together. 
That is one of those things that they need the resources, they 
need the funding. We need to support all of our law enforcement 
to use those services, to know when people are put under 
investigation, to reduce duplication of effort, and increase 
the safety of officers.
    Chief Beary. Thank you for the question.
    We have made great strides over the last 15 years. Again, I 
have been in this business a long time. Within the last 15 
years, we have realized how complex these cases are.
    You know, it used to be you had those turf battles because 
criminals stayed in their jurisdiction and they did not use 
electronic devices and they did not travel far from home. So, 
generally, you knew that 20 percent of your bad guys were 
causing 80 percent of your problems. It was pretty easy to 
figure out. Well, as the country has become more reliant on 
technology and as we have become more transient in nature--most 
of us in law enforcement got it a long time ago--and to be 
effective, you have to work with other agencies and you have to 
share intelligence information. I have seen a huge change in 
that with, you know, it used to be dependent on the 
relationship you had with that agency and knowing somebody.
    Now, if an FBI agent calls me or another agency calls me 
and I verify who they are, their identity, they are getting the 
information. So I think that what you have seen is we 
understand that crime is now global in nature. We have made 
great strides to push our resources and protect our public.
    Mr. Alexander. I concur with everything they just said, Mr. 
Chairman. But let me just add one other thing here. I want to 
put a great deal of emphasis on this. You know, there is still 
this notion that somehow Federal and local law enforcement 
don't work well together or share information. As you have just 
heard, there has been a history of that in the past.
    But certainly in more recent years, particularly post-9/11, 
we have really seen a collaboration of support and strength 
between Federal, State, and local organizations. So that does 
not occur in the same sense in which we know historically it 
has occurred. But what I think is very important here is that 
inasmuch as our Federal partners may have funding to do more 
intelligence gathering, particularly as it relates to 
technology, a lot of that also needs to be put--a lot of those 
resources and funding also need to be put at the State and 
local level so they can work collaboratively together.
    Nobody is waiting on--I am the only person who has got this 
piece of technology, I am going to share it. But here, again, 
we would like to be able to have an opportunity to gather that 
intelligence information through technology that is out there, 
which we can't afford, at the same speed as our Federal 
partners. Then we are looking at the same thing at the same 
time. Because what is going to be really important for us in 
this country is how fast we can gather information, how fast we 
can diagnose that information, and, more importantly, how fast 
we can act on it.
    We have got to act on it with incredible speed because we 
know that we have those that are coming into this country to do 
harm to us every day. As you stated, Mr. Chairman, there are 
also those who are trying to recruit young Americans in this 
country. We know some parts of what that is. But the problem is 
we don't know all or how vast it may happen to be.
    The only way we are going to know that is that we have to 
have the proverbial boots on the ground in local law 
enforcement and the funding in order to have the technology to 
meet that threat or any potential threat than we may have in 
the country.
    Mr. Higgins. Thank you. I yield back.
    Mr. King. Thank you, Doctor.
    The gentleman from Texas, Mr. Hurd--we will try to get 
through all of the Members we can in just about 13 minutes.
    Mr. Hurd.
    Mr. Hurd. Thank you.
    Thank you, gentlemen, for showing up today.
    By way of my background, I spent 9 years as an undercover 
officer in the CIA. I was a HUMINT guy so I collected a lot of 
intelligence. I saw a lot of the stuff that is not getting down 
to you all.
    This question is for all three of you. It is really a 
philosophical question. Dr. Alexander, I agree with you that 
the lack of centralized information is one of the problems. I 
also think that one of the problems is overclassification of 
information on the Federal side. You know, that is something us 
up here are going to have to fix for you because we are in that 
position.
    But I also think the concept of need-to-know--you know, 
this was ingrained in me from when I was 22 years old, from my 
entire decade in the intelligence community. But I think we 
need to shift to a concept of need-to-share, right? I welcome 
your input and comments on how our intelligence community, our 
law enforcement community, we can shift the culture from this 
need-to-know to need-to-share.
    Mr. Sena. Thank you very much for the question. You know, 
this whole ideology--and there has been this paradigm shift of 
how we used to do information sharing. I remember you know, 
vividly being called in by the FBI to look at some documents, 
highly redacted. Then as I started reading it realized that was 
one of my own task force officers that wrote the report. You 
know, but they thought they had a great lead there. That is the 
way it used to be.
    Now we are getting more into that level of people needing 
to share information. Not just the law enforcement community, 
but we got to look for all those first responders out there, 
the firefighters, the emergency medical personnel, the 
emergency management personnel, those folks that can come 
across data. That is where the fusion center really comes into 
play. The development of terrorism liaison officers, folks who 
are trained to look for those signs of terrorism or other 
criminal activity and know to report that information to their 
fusion center.
    The big piece of this that has to happen and has been 
talked about for decades is the tear line on every Classified 
document. There that has be an Unclassified version of every 
Classified document or we are losing our entire audience and 
the group of people that can collect the data we need to 
protect our country.
    Thank you.
    Mr. Hurd. That is helpful. Thank you.
    Chief Beary. Thank you as well for the question. 
Overclassification has been one of those things that, quite 
frankly, drove me crazy for many years. Just like Mr. Sena, I 
have an experience where one of my detectives started an 
investigation and it was a terrorism-related investigation. It 
went to the FBI. Then when we requested an update, we were told 
it is Classified, we can't tell you. Well, if it wasn't for us 
giving you the information, you would have never known about 
that. So that has happened in the past. I am proud to say that 
does not happen right now.
    The JTTF in Central Florida has done a great job and they 
actually reach out to us. But we have to push that intelligence 
is there to be shared. Again, I think a lot of that was 
ingrained in us from the early 1970s, all the way back to 
Watergate. Law enforcement has slowly been breaking out of that 
and understanding that we need to share.
    I think that was, quite frankly, pushed down on us by the 
Federal Government because the locals have been good about 
sharing information for a long time--again, back to that let's 
catch the bad guy and put him in jail. But we had those walls 
put up on us and the restrictions because of concerns about too 
much information and need to know. I absolutely endorse the 
concept that we need to share.
    So thank you.
    Mr. Alexander. Thank you.
    I appreciate that question as well too because it really 
goes to a piece of my testimony here earlier as it relates to 
required security clearances. If we think about the fact that 
we have Federal, State, and local law enforcement that is 
working together. Oftentimes our Federal partners, who are 
security cleared or have security clearances, oftentimes may 
want to but can't share certain information.
    So it becomes important, I think, and incumbent upon us to 
think about, at least I do, think about that at a local and 
State level, how do we make sure that we can broaden or expand, 
if you will, opportunities for local and State law enforcement 
officers to have the opportunity to get those clearances so 
that the whole idea of a willingness to share becomes a much-
valued reality. Because oftentimes information cannot be shared 
because maybe at the local level I am just not cleared. That 
clearing or security clearance that that may require for myself 
and other officers inside my agency oftentimes is very 
expensive and very protracted as I stated earlier.
    So from a very fundamental basic philosophical thought 
about it is this, is that holding information is not going to 
be to our advantage in this country. We need to share as much 
intelligence information and trust in those that we are sharing 
it with because they have the right clearances in order to 
receive that information or are trusted with that information. 
But it is going to be for us very simply this, when we are able 
to ascertain intelligence information shared among each other 
and act on it and be able to talk about it collaboratively, it 
is going to be so effective in terms of the security of our 
Nation.
    Mr. Hurd. Thank you.
    Thank you, Mr. Chairman.
    Mr. King. Mr. Hurd.
    Mr. Barletta.
    Mr. Barletta. Thank you, Mr. Chairman.
    Chief Beary, in your written testimony, you state that the 
importance of engaging non-urban areas in information sharing 
should not be overlooked and that the planning and preparation 
for terrorist attacks often occur in small or rural 
communities. I agree, local law enforcement is the first line 
of defense in stopping any type of attacks.
    As a former mayor, I understand the challenges faced by 
local communities and law enforcement officers in remaining 
actively engaged in our National information and intelligence-
sharing efforts. In your opinion, what can Congress do to 
ensure that small and rural communities continue to be active 
partners in fighting terrorism and what additional tools, if 
any, do they need?
    Chief Beary. Thank you, sir.
    I think the example is already out there and it just needs 
to be expanded upon and that is the Terrorism Liaison Officer 
program, the TLO program. I can tell you in my agency, I have 
more TLOs in my agency per capita than most of the major cities 
around me because I believe in it.
    If you have those officers that are on the street and they 
have been trained as TLOs, they know what to look for, they 
know how to report it, and they are not afraid to report it. 
Because I think that is one of the other concerns that some 
local officers have is that fear that if I report something and 
it turns out wrong, I am going to look bad.
    Well, those TLOs are incredibly well-trained. The program 
is there. If there is any one thing you could do from that 
local perspective is push that TLO program, adequately fund it, 
train those cops, and make sure they share that data. It is an 
outstanding program.
    Mr. Barletta. Thank you.
    Mr. Sena, due to the nature of their positions, law 
enforcement officers have daily interactions, call for service, 
traffic stops, or community policing initiatives with the 
community that they serve. What type of training and processes 
are in place to be alert for potentially serious suspicious 
behavior? What is the reporting mechanism? For instance, are 
first responders aware that if they see a copy of Inspire 
magazine, for example, in a home that it should raise a red 
flag?
    Mr. Sena. Thank you very much for the question.
    As far as the education part, it goes back to that 
terrorism liaison officer training program but also training 
analysts to develop products. We have got to have a highly-
trained cadre of analysts that produce the things that give 
them those indicators, those warnings. Inspire magazine in 
itself may not be anything. Printing 80-plus pages may not be 
the thing for most people. But if you see indicators, whatever 
it may be, whatever the latest trend is for activities, they 
have got to have the ability to get that in their hands so that 
when they are out there on that call, if they see those 
indicators, then they know hey, this is what I just learned 
about in the bulletin or the briefing that I just had or 
whatever training they just attended.
    Then the other piece of that is that, you know, 
understanding of the Nation-wide Suspicious Activity Reporting 
initiative, knowing that, you know, as the local law 
enforcement, you know, guy on the street, their job is to 
report that information to their fusion center and the Joint 
Terrorism Task Force so those analysts can look at that and see 
if there is any connection between that individual whose house 
they are at and any other on-going investigation. Sometimes 
there is no connection. But then that becomes one of those 
pieces that can, you know, be added on to later to that puzzle 
that identifies this person as a potential criminal threat.
    Mr. Barletta. Thank you.
    Thank you Mr. Chairman.
    Mr. King. We will go to Mr. Langevin. We should have enough 
time for Mr. Langevin. If we have time, we will go to 
distinguished Mr. Keating.
    Mr. Langevin. Thank you, Mr. Chairman.
    I appreciate the courtesy and----
    Mr. King. First let me just say that your colleague, Mr. 
Keating, yielded to you because he did have priority. You owe 
him one.
    Mr. Langevin. I owe him one, among many.
    I want to thank our panel for your testimony here today. 
Mr. Sena, if I could just mention, I want to thank you for your 
comments on Regional Information Sharing Systems. Obviously 
they are incredibly important in the capabilities that they 
provide to law enforcement agencies. In fact, Mr. King and I 
have led the effort now for several years requesting funding 
support for the RISS centers around the country.
    If I could, I will start with Chief Beary, cyber terrorism 
and cyber crime more broadly is an enormous concern of mine. I 
spend a lot of time on this issue. How were your members 
dealing with the rapidly-growing cyber threat? Do you feel 
adequately prepared to deal with this issue?
    Chief Beary. Thank you, sir.
    The answer is no. We are not adequately prepared to deal 
with it. We have seen an enormous growth and that is only what 
we know about. What scares me is what we don't know about. Most 
local law enforcement agencies do not have the money or the 
technology or the time to train their personnel for these 
matters. We have seen great movement by the FBI and the Secret 
Service and others trying to ramp up their training for State 
and local officers. That needs to continue.
    I personally believe, and I may be smashed for this but I 
tell it like it is, what I see across this country is I don't 
see crime going down, I see crime as different. I think there 
is a lot more crime than we know about because of cyber crime. 
I think that will be the growth area from now and into the 
future.
    So we have to, first thing, get our arms around how big the 
problem is. Right now, we can't even say it because nobody 
tracks that data. There is no central repository tracking data 
for cyber crime. So every time we talk, we are just 
speculating. I think that most Americans--I have been 
victimized three times with my information being stolen. It is 
very frustrating.
    So the answer is going to be we need to explore it. We need 
to train our officers. As a country, we need to look at the 
rules and the laws. Because right now they do not keep pace 
with what we are dealing with across this country.
    Thank you.
    Mr. Langevin. Thank you. That is very insightful and 
helpful. Do either of our other witnesses want to testify on 
the cyber terrorism, cyber crime aspect?
    Mr. Sena. Thank you very much. You know, about 2 years ago, 
the program manager for the Information Sharing Environment, 
Kshemendra Paul, invited me to his office and just so happened 
that Secret Service was there. We started a conversation about 
the development of training courses for analysts across the 
country. They worked with fusion center analysts to develop 
that training course. They are going up on their 6th iteration 
of that training to get as many folks trained at the Hoover, 
Alabama facility to understand what the threats are coming from 
the cyber environment.
    We also started a pilot about a year ago, working with the 
Multi-State Information Sharing Advisory Council, their Center 
for Internet Security, to develop a program of: How do we 
engage in the cyber threat? Everyone has a piece of it. When we 
look at, you know, everything from doxing, to those that, you 
know, are not maliciously trying to take out your money from 
your bank account but just trying to disrupt your daily life 
and routines, to those cyber terrorists that are attacking our 
networks and lately have been attacking law enforcement 
networks and capabilities.
    If we lose 9-1-1 systems, if we lose our ability to control 
things within our law enforcement agencies, access to our own 
records, we can't function as Government, as law enforcement. 
So training analysts, training them to have that capability and 
our goal is to train thousands of analysts and those analysts 
will be producing products and currently are producing products 
for those law enforcement, for those public safety first 
responders so they know what the threats look like. So that if 
they become the victim of spear phishing or some other 
activity, they know how to report that information, we can 
triage it. Now with a unified message where you call three 
agencies, one of three, you can call those agencies to report 
your cyber activity, your malicious cyber activity.
    So we have had some great strides in the last 2 years on 
that. We need to go much further because we are so far behind 
in law enforcement, just in the protection of our own 
infrastructure at a basic level. We need to protect our own 
infrastructure if we are going to protect our communities.
    Mr. Langevin. Certainly.
    Mr. Alexander. Yes, sir, and I certainly do concur with 
both gentlemen here. But also I must add too, as well, as you 
have already heard, is that as far as local law enforcement is 
concerned, our ability to fight cyber crimes or cyber terrorism 
is not there. We just don't have the money. We don't have the 
training. We don't have the access to the latest technology. 
Here is the thing, those who are committing these crimes, they 
are not MIT graduates. I have got a 12-year-old niece who knows 
how to get into my account.
    With a little time, a little ingenuity, and a little 
willingness, we all can become very much victims. But very much 
importantly as well too, a lot of what is going on in our 
communities, and I think Chief Beary stated it very eloquently 
and he is right, crime is not going down, it is just something 
very different than what we know. We can't even measure cyber 
crimes or terrorism right now. We don't really know how vast 
and big a problem that it has the potential to be until we get 
the funding that is needed.
    I will keep coming back to that, Mr. Chairman. We got to 
have----
    Mr. King. The message has come through loud and clear.
    Mr. Alexander. Yes, sir. Yes, sir. I am going to be held 
accountable when I get back to the great State of Georgia.
    But the most important thing here is that for all of us, 
and I will speak for all three of us here, we are all saying 
the same thing, and we are all singing from the same sheet of 
music as it relates to this.
    Mr. Langevin. Thank you.
    Well you have confirmed the troubling reality that we are 
facing right now that we have got to get our arms around. We 
are way behind the curve on this.
    Thank you for that.
    Mr. King. My wife's family is from Georgia. So I will tell 
them that you really advocated well for them today.
    We probably have 2 or 3 minutes left in the vote, and so I 
recognize the gentleman from Massachusetts, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman, and since we are up 
against a roll call, I will just ask one question and ask you 
if you have other suggestions to give it to this committee in 
writing afterwards too, but this committee has--the full 
committee has investigated the Boston Marathon bombings. We 
found out that information sharing and the lack of that was 
critical to perhaps preventing that from occurring.
    Specifically, we found out that, No. 1, while Federal 
authority said, well, the access--the information was actually 
there for the local and State authorities through the Joint 
Terrorism Task Force. No. 1, how would you ever know to look 
for it if you are not privy to that information in the first 
place?
    No. 2, if you were, we found out that local police had to 
ask permission from the Federal agencies to even share that 
information with their chiefs or their supervisors.
    I want you to tell us what we can do to make that better. I 
know the FBI has made some positive steps, but I also think it 
should be in writing so that it transcends any administration. 
Just a few seconds. Any other feedback you have how this could 
be corrected, if you could do it in writing afterwards as well.
    Mr. King. Yeah. I would ask if you could try to keep your 
answers to about 30, or 40 seconds. Otherwise you have to hang 
around for another hour until we come back.
    Mr. Sena. You know, as far as the MOUs and putting it in 
writing that a JTTF officer has access to data doesn't do a 
whole lot of good mainly because they are investigators. They 
are looking at cases. We actually need to have the analysts 
that are in fusion centers have access to that data, have the 
briefings, have the coordination piece with it. They are the 
ones that can look at the overall picture.
    Each investigator looks at their case. The analysts look at 
the myriad of information out there and tries to provide 
direction to those officers and agents in the field. They are 
the ones that really need to be included in this discussion.
    Mr. Keating. They don't have access.
    Mr. Sena. Right now there is no access permission other 
than on a case-by-case basis, fusion center by fusion center. 
That has to change.
    Mr. Keating. Chief.
    Chief Beary. Thank you, sir. Mike hit the ball out of the 
park on that. It has to be the analysts because the 
investigator is only going to look at that narrow scope of 
their investigation, and they don't have that broad spectrum 
approach, and it needs to be the analysts that have access to 
that data and the ability to share it and not be afraid to.
    Mr. Alexander. Very quickly, sir, I think one thing in 
addition to what my colleagues here are saying is we need to 
expand the ability for those chiefs or whomever to have that 
intelligence information, but they have to have security 
clearances, to make that possible. So I think that would be----
    Mr. Keating. Well, we are working to get this in writing so 
that it becomes a formal process, and if you could follow up 
with any more specific information, I really appreciate the 
information about the analysts, it would be appreciated.
    Our time is precious so I yield back.
    Mr. King. Thank you, Mr. Keating.
    First of all, let me thank the witnesses. I am sorry we 
have had to run it like this, but if we didn't end it now, you 
would have to hang around for another hour or so before we come 
back.
    So I want to thank you very much for your testimony. We 
could have gone on much longer, believe me, and it is very, 
very informative, very central. Some of us may have questions 
in writing that we will submit to you, and any response you can 
give us would be greatly appreciated.
    So I want to thank you very much. I want to thank the 
Ranking Member, and the----
    Do you have anything?
    Okay. The hearing is adjourned.
    [Whereupon, at 3:01 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
